No. 21-10

In the Supreme Court of the United States
LORI BRAUN, AS ADMINISTRATRIX OF THE ESTATE OF
CASSANDRA BRAUN, DECEASED, INDIVIDUALLY AND ON
BEHALF OF ALL WRONGFUL DEATH BENEFICIARIES OF
CASSANDRA BRAUN,

Petitioner,
v.
BRIAN RAY BURKE, ET AL.,
Respondents.
On Petition for a Writ of Certiorari
To the United States Court of Appeals
For the Eighth Circuit
BRIEF IN OPPOSITION OF
RESPONDENT BILL BRYANT

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Ste. 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@
arkansasag.gov

LESLIE RUTLEDGE
Arkansas Attorney
General
NICHOLAS J. BRONNI
Solicitor General
Counsel of Record
VINCENT M. WAGNER
Deputy Solicitor
General
ASHER L. STEINBERG
Assistant Solicitor
General
JENNIFER L. MERRITT
Senior Assistant Attorney
General

QUESTIONS PRESENTED
(1) Whether, as all lower courts do, courts should
consider the facts of individual cases in deciding
whether to apply the intent-to-harm or deliberate-indifference standard to claims alleging that a police officer’s high-speed driving violated motorists’ substantive due process rights.
(2) Whether, in deciding whether a police officer
had the opportunity to deliberate, a court should consider whether an officer believed he was responding to
an emergency, as the Fourth and Eighth Circuits do,
or whether the court believes he was responding to an
emergency, as no court of appeals does.

(i)

TABLE OF CONTENTS
Questions Presented ................................................... i
Table of Contents ...................................................... iii
Table of Authorities................................................... iv
Statement ................................................................... 1
Reasons for Denying the Petition .............................. 4
I.

The first question presented does not
warrant review. .................................................... 4

II. The second question presented does not
merit review. ........................................................ 8
III. This case is a poor opportunity to review the
questions presented. .......................................... 12
Conclusion ................................................................ 15

(ii)

iii
TABLE OF AUTHORITIES
Cases
Bingue v. Prunchak,
512 F.3d 1169 (9th Cir. 2008) ................................8
Cnty. of Sacramento v. Lewis,
523 U.S. 833 (1998) ............................................ 5, 6
Dean ex rel. Harkness v. McKinney,
976 F.3d 407 (4th Cir. 2020) ................................ 10
Flores v. City of South Bend,
997 F.3d 725 (7th Cir. 2021) ................................ 11
Helseth v. Burch,
258 F.3d 867 (8th Cir. 2001) (en banc) ..................5
Sauers v. Borough of Nesquehoning,
905 F.3d 711 (3d Cir. 2018) ......................... 8, 9, 12
Terrell v. Larson,
396 F.3d 975 (8th Cir. 2005) (en banc) .............. 5, 6
Torres v. Madrid, 141 S. Ct. 989 (2021) ................... 13

STATEMENT
1. On October 10, 2016, Arkansas State Police
Trooper Brian Burke was one of two troopers assigned
to patrol the entirety of Garland County, Arkansas.
C.A. App. 155. That night, he was called to the scene
of a hit-and-run accident on U.S. Highway 70. Id.
While assisting the accident’s victim, he noticed an
SUV speeding with flashing hazard lights towards
Hot Springs, a small city and popular tourist destination in Arkansas’s Ouachita Mountains. Id. Based on
his training, he estimated the SUV was traveling at
90 to 95 miles per hour, in a 55-mile-per-hour zone.
Id.; Pet. App. 2.
Believing the SUV posed a serious risk to the motorists ahead, Trooper Burke decided to try to stop it.
Pet. App. 3. Less than two minutes later, Trooper
Burke wrapped up the hit-and-run investigation, returned to his patrol car, radioed a description of the
vehicle to the county sheriff’s office, and took off after
the SUV. Pet. App. 2; C.A. App. 251. The SUV by
then was well ahead of him, and Trooper Burke had
to drive quickly—at an average of 90 miles per hour—
to catch up. Pet. App. 2. Roughly eight miles later,
Trooper Burke encountered Tavon Jenkins’s car; it
was turning left into Trooper Burke’s lane. C.A. App.
30; Pet. App. 3. Though Trooper Burke tried to stop
his car in time, he wasn’t able to, and he crashed into
Jenkins’s car. Id. Cassandra Braun, Jenkins’s passenger, died, and Trooper Burke was seriously injured. Id.
2. Rather than pursue her state-law remedies,

2
Braun’s mother and estate administrator, Lori Braun,
sued Trooper Burke and the Director of the Arkansas
State Police under Section 1983, alleging Fourth and
Fourteenth Amendment violations on Trooper
Burke’s part and failure to train him on the Director’s
part. Pet. App. 14. After discovery, the district court
granted summary judgment for defendants on all
claims. Pet. App. 19.
The district court first entered summary judgment for the defendants on Braun’s Fourth Amendment claim because Trooper Burke, undisputedly, did
not intend to seize Cassandra Braun. Pet. App. 16.
Turning to Braun’s Fourteenth Amendment substantive due process claim, the district court correctly
noted that under Eighth Circuit precedent, an intentto-harm standard applies to substantive due process
claims challenging high-speed police driving so long
as the officer believed he was responding to an emergency at the time. Pet. App. 17-18. Trooper Burke
undisputedly had that belief, so the intent-to-harm
standard applied, and because there was no evidence
that Trooper Burke intended to harm Cassandra
Braun, he was entitled to summary judgment. Pet.
App. 18.
3. Braun appealed, as to her Fourteenth Amendment claim, and the Eighth Circuit affirmed on the
same grounds. In an opinion by Judge Gruender, the
court explained that it only applies the deliberate-indifference standard, Braun’s preferred standard, in
situations where “actual deliberation is practical.”
Pet. App. 4 (quoting Terrell v. Larson, 396 F.3d 975,

3
978 (8th Cir. 2005) (en banc)). When an officer believes he is responding to an emergency, past circuit
precedent had held, deliberation is not practical. Pet.
App. 5. Trooper Burke, the court explained, believed
he was responding to an emergency, id., and given he
was “facing an active threat to public safety,” it could
hardly conclude he attested to that belief in bad faith.
Pet. App. 7.
Therefore, the court applied the intent-to-harm
standard. Id. And because Braun did not allege that
Trooper Burke “intended to harm anyone,” it held he
did not violate Cassandra Braun’s due process rights.
Id. In turn, Braun’s failure-to-train claim against Director Bryant failed for want of an underlying constitutional violation. Id.
Judge Grasz, though joining the court’s opinion,
wrote a concurring opinion to suggest the decision implicated a circuit split. In his view, while Eighth Circuit precedent looked to an officer’s beliefs to decide
whether he faced an emergency, two other circuits
looked at “objective facts beyond the officer’s subjective arguments” to decide that question. Pet. App. 12.
Judge Colloton, who also joined the court’s opinion, wrote a concurring opinion in response. In his
view, the split Judge Grasz described was “illusory.”
Pet. App. 9. In one of the cases Judge Grasz cited, he
explained, there was a dispute about whether the officer sincerely believed he was responding to an emergency; in the other, the officer did not claim he believed he was. Id. Thus, neither applied a deliberateindifference standard where an officer undisputedly

4
believed he was responding to an emergency, and neither rejected the Eighth Circuit’s subjective test. Pet.
App. 9-10.
Braun then petitioned for rehearing en banc. The
court denied her petition; no judge dissented. Pet.
App. 20.
REASONS FOR DENYING THE PETITION
I.

The first question presented does not warrant review.

This case is an unsuitable vehicle to answer the
first question presented. Indeed, this case does not
implicate the first question listed in Braun’s petition,
as her second question presented demonstrates. Her
first question presented claims the Eighth Circuit
“appl[ies] the intent-to-harm standard of liability to
all police high-speed driving,” regardless of “whether
there was an opportunity to deliberate.” Pet. i. Yet
her second question presented claims that in deciding
whether to “employ[] the intent-to-harm standard” in
a case of high-speed police driving, Pet. 30, the Eighth
Circuit asks whether “an officer . . . subjectively believed there to be an emergency,” Pet. i, that “justified
high-speed driving” in response, Pet. 28.
Only one of those claims can be true, and it’s the
second. The first, by contrast, simply invents a rule
that the Eighth Circuit has never adopted, much less
applied below. While the Eighth Circuit does categorically apply the intent-to-harm standard to a subset of
high-speed police driving—namely, high-speed

5
chases—it held that this case fell outside that subset.
There is no circuit split over whether the intent-toharm standard categorically applies to all high-speed
police driving, and this case does not present an opportunity to decide whether it categorically applies to
any type of high-speed police driving.
A. Two decades ago, this Court unanimously held
that “in a high-speed automobile chase aimed at apprehending a suspected offender . . . only a purpose to
cause harm unrelated to the legitimate object of arrest
will satisfy the element[s]” of a due process claim.
Cnty. of Sacramento v. Lewis, 523 U.S. 833, 836
(1998). Applying that holding shortly thereafter, the
Eighth Circuit held that “the intent-to-harm standard
of Lewis applies to all § 1983 substantive due process
claims based upon the conduct of public officials engaged in a high-speed automobile chase aimed at apprehending a suspected offender.” Helseth v. Burch,
258 F.3d 867, 871 (8th Cir. 2001) (en banc). But it
went no further. It did not hold that (or decide
whether) the intent-to-harm standard applied to other
types of police high-speed driving.
In a subsequent en banc opinion, reasoning that
high-speed chases could not logically be distinguished
from other emergency situations, the Eighth Circuit
held that the intent-to-harm standard applied not
only to high-speed chases, but “an officer’s decision to
engage in high-speed driving in response to other
types of emergencies” as well. Terrell v. Larson, 396
F.3d 975, 979 (8th Cir. 2005) (en banc). Terrell, for
example, involved a high-speed drive to a residence

6
where police were told a woman was threatening to
harm her three-year-old child. But under the Eighth
Circuit’s rule, the application of this standard was not
automatic. To receive its benefit, officers were required to show that they “believed that they were responding to an emergency” at the time. Id. at 980.
In sum, then, the Eighth Circuit, like this Court
in Lewis, has adopted the intent-to-harm standard for
all high-speed chases of suspected offenders. But in
other high-speed driving cases, the Eighth Circuit applies that standard only if the officer believed he was
responding to an emergency.
B. In this case, the Eighth Circuit applied the second of these rules, not the first. Viewing Trooper
Burke’s conduct as “a hunt for a suspect whose whereabouts were unclear,” Pet. App. 11 (Grasz, J., concurring), rather than a “high-speed chase of a suspect,”
Pet. App. 4, or a “pursuit” of one, Pet. App. 8 (Colloton,
J., concurring),1 it required Trooper Burke to show
“that he believed he was responding to an emergency”
before applying the intent-to-harm standard. Pet.
App. 5. Further, the Eighth Circuit required Burke to
Whether the Eighth Circuit was correct in that view is
doubtful. It is far from clear that Trooper Burke’s pursuit
was any less “a high-speed automobile chase aimed at apprehending a suspected offender” because the speeding vehicle
he saw was out of his sight by the time he started chasing
after it. Lewis, 523 U.S. at 836. The distinct possibility this
Court would hold this case involves a high-speed chase and
is squarely controlled by Lewis makes it an especially poor
case to address how Lewis’s rationale applies to other kinds
of high-speed police driving.
1

7
show his belief “was not so preposterous as to reflect
bad faith.” Pet. App. 7. Because it held he believed,
in good faith, that he was responding to an emergency,
it applied the intent-to-harm standard. Id. (“Trooper
Burke believed he was responding to an emergency,
and thus we apply the intent-to-harm standard”).
Braun is simply incorrect, then, in claiming the
Eighth Circuit has “applied the intent-to-harm standard of Lewis to all high-speed driving by police officers, regardless of the circumstances.” Pet. 13-14. Rather, except for cases that involve chases, the Eighth
Circuit only applies the intent-to-harm standard in
emergency circumstances. Braun may quarrel with
how the Eighth Circuit “examines the facts of individual cases” and prefer an objective definition of emergencies, Pet. i, but the Eighth Circuit undeniably does
examine the facts of individual cases before applying
the intent-to-harm standard. There is no conflict between the Eighth Circuit and other circuits on
whether the intent-to-harm standard applies to all
high-speed police driving or only on a case-by-case basis.
C. Nor is there a conflict between the Ninth Circuit and other circuits on that score. Braun initially
claims the Ninth Circuit has applied the intent-toharm standard to “all high-speed driving by police officers.” Pet. 13. But she later falls back to merely
claiming that it has applied that standard to “all highspeed chases.” Pet. 21. The latter claim is more accurate. In fact, the Ninth Circuit only categorically applies the intent-to-harm standard to “high-speed

8
chases aimed at apprehending a fleeing suspect.”
Bingue v. Prunchak, 512 F.3d 1169 (9th Cir. 2008). It
has never held the intent-to-harm standard applies
categorically to high-speed police driving.
And
whether its rule for chases is correct or not is not presented in this case because the Eighth Circuit held
Trooper Burke’s driving was not a chase.
To be sure, Braun has put her finger on a far more
modest—and unpresented—split than the one she depicts. Whereas the Eighth Circuit, following Lewis,
applies the intent-to-harm standard to all high-speed
police chases of suspected offenders, and the Ninth
Circuit applies that standard to all high-speed chases
of fleeing suspects, the Third Circuit applies the deliberate-indifference standard to high-speed chases of
suspected offenders who have only committed a minor
offense, and aren’t fleeing in a manner that “endanger[s] the public welfare.” Sauers v. Borough of
Nesquehoning, 905 F.3d 711, 718 (3d Cir. 2018); see
also id. at 721 (noting inconsistency with the Eighth
and Ninth Circuits’ decisions). In an appropriate case,
which of these approaches is right is a question that
may warrant this Court’s review. But this case has
nothing to do with that question, because the Eighth
Circuit did not view it as a chase case. Review of the
first question presented should therefore be denied.
II. The second question presented does not
merit review.
Braun’s second question presented accurately
states the basis for the Eighth Circuit’s decision. The

9
Eighth Circuit does indeed ask, and asked here,
whether an officer “believed there to be an emergency”
before applying the intent-to-harm standard. Pet. i.
But like her first question presented, her second question presented wrongly claims a circuit split. No circuit uses a purely “objective test to determine whether
an emergency existed,” id., or rejects the Eighth Circuit’s approach. Rather, the most that can be said for
Braun is that in some circuits that have addressed the
issue, the precise definition of emergency remains an
open question.
A. Braun first claims the Eighth Circuit’s test conflicts with the Third Circuit’s decision in Sauers. Pet.
29. That is incorrect. In Sauers, a police officer saw a
driver commit what the Third Circuit described as a
“minor traffic infraction,” 905 F.3d at 716, or “summary traffic offense,” id. at 715. Though he radioed
police in the neighboring town to request they pull the
driver over when he reached their jurisdiction, he nevertheless decided to pursue the driver himself at
speeds over 100 miles per hour. Id. He then lost control of his car, killed a third party, and pled guilty to
vehicular homicide. Id. Understandably, given these
facts, the officer made “no allegation that [he] believed
he was responding to an emergency.” Pet. App. 9 (Colloton, J., concurring). And given his tacit concession
of the issue and the extremity of the fact pattern, the
Third Circuit found it “obvious” there was none. Sauers, 905 F.3d at 718. It did not apply an “objective
test” or reject a subjective one; whether there was an
emergency simply wasn’t disputed.

10
Braun next claims the decision below conflicts
with the Fourth Circuit’s decision in Dean ex rel.
Harkness v. McKinney, 976 F.3d 407 (4th Cir. 2020).
Pet. 29. But Dean, in fact, applied a subjective test.
In Dean, an officer who was called to assist with a traffic stop claimed “he was responding to what he believed to be an emergency.” 976 F.3d at 414. Rather
than treat this belief as irrelevant, the Fourth Circuit
held a jury could find he wasn’t responding to an
emergency because it could find he didn’t really believe he was, for several reasons.
First, it noted that after he was called to assist, he
was told “that there was no emergency.” Id. at 415.
Second, it noted that he “not only acknowledged the
change in the status of the call but stated affirmatively that he was ‘backing down’ to . . . a non-emergency response.” Id. at 415-16. Third, it noted that
he “deactivated his emergency lights and siren as required for non-emergency responses—indicating that
he knew the situation was no longer an emergency.”
Id. at 416. On the basis of this evidence of what the
officer knew and believed—not objective evidence that
no emergency existed—the Fourth Circuit held that a
jury could find he was not responding to an emergency. See Pet. App. 9 (Colloton, J., concurring) (“At
a minimum, there was a factual dispute about
whether the officer believed in good faith that he was
responding to an emergency.”). The Fourth Circuit’s
test is no different from the Eighth Circuit’s.
Even more puzzlingly, Braun finally claims that
the decision below conflicts with the Seventh Circuit’s

11
decision in Flores v. City of South Bend, 997 F.3d 725
(7th Cir. 2021). Pet. 29. In Flores, the officer didn’t
argue that he was responding to an emergency, or
even that the intent-to-harm standard should apply;
he only disputed whether he was deliberately indifferent. See id. at 729-30. Understandably so; overhearing on the police radio that two officers, who didn’t request assistance, were about to stop a speeding car,
the defendant sped to the scene at 98 miles per hour
from two miles away to assist. See id. at 728. Given
his arguments, the Seventh Circuit presupposed that
he was “not responding to an emergency” and that the
deliberate-indifference standard applied. Id. at 729.
Flores is not a precedent on the “test” for deciding
when an emergency exists. Pet. i.
B. Finally, even if some circuit did apply an objective test to decide whether an officer was facing an
emergency, this case would come out no differently
under that test. Indeed, the Eighth Circuit has already indicated how it would decide the case under an
objective test, aptly describing the circumstances
Trooper Burke faced as “an active threat to public
safety.” Pet. App. 7.
The proper disposition of this case under an objective test is also illustrated by Braun’s own arguments.
On the one hand, Braun maintains that the risk of
“damage to life and liberty” posed by high-speed police
driving is so great that unjustified high-speed police
driving generally violates the Constitution. Pet. 32.
On the other, she paradoxically claims that an untrained civilian’s driving at 90 to 95 miles per hour

12
towards a city does not even pose an emergency. Her
only rationale for that claim is that Trooper Burke
was merely “speculat[ing] that a driver he once saw
speeding might still be speeding.” Pet. 27 n.14. But
that’s little more than Braun’s own speculation that
the driver may have voluntarily stopped speeding.
And requiring Trooper Burke to make such an assumption—rather than attempting to catch up to the
driver—would have left him in the untenable position
of letting a dangerous situation continue.
Thus, on the undisputed facts, even a court that
defined emergencies objectively would have concluded
that Trooper Burke was responding to one. Cf. Sauers, 905 F.3d at 718 (granting that “[p]ursuing an actively fleeing suspect who is endangering the public
welfare” justifies high-speed driving). And that
means that this case would come out the same way in
any circuit. There is no conflict.
III. This case is a poor opportunity to review the
questions presented.
Even if Braun prevailed on both questions presented, she would not obtain relief. In part this is because, as explained above, the Eighth Circuit already
agreed with her on the first question presented, and
she would lose under her preferred approach to the
second. But it’s also because even if the courts below
held on remand that Trooper Burke didn’t face an
emergency, and was deliberately indifferent, Respondents would be protected by qualified immunity.
After all, under settled circuit precedent at the time of

13
the accident, Trooper Burke’s actions were clearly
lawful. This Court’s review, therefore, would be an
entirely academic exercise.
In response, Braun may claim that this Court occasionally grants certiorari to decide substantive constitutional questions when defendants will likely be
protected by qualified immunity. See, e.g., Torres v.
Madrid, 141 S. Ct. 989 (2021). But in those rare cases,
the Court is usually presented with a deep and entrenched circuit split that demands resolution. See
Pet. for Writ of Cert. 9-17, Torres (No. 19-292) (detailing four-to-two split among courts of appeals and state
courts of last resort in decisions seven to 24 years old).
Here, stating the case for Braun most charitably, on
the only question truly presented, there is at most an
ambiguous tension between the decisions of one circuit, the Eighth, and a very recent decision of one
other circuit, the Third. Even if that tension could be
called a split, the Court should wait for a more appropriate case, and further percolation, before resolving it.
Braun may also suggest that if qualified immunity bars review now, it would bar review forever, because the law will never be clearly established until
this Court settles it. But that is not correct. If a court
of appeals adopts her proposed objective test, that test
will become clearly established law in that circuit. If
an officer in that circuit who believed he was responding to an emergency then petitioned from a decision
denying him immunity, this Court’s review would not
merely be academic. It would resolve the case. As a

14
general matter, even in cases presenting deep splits,
that kind of exercise of this Court’s certiorari jurisdiction is more appropriate than granting review when
qualified immunity will ultimately control the outcome. But that is especially true here.

15
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Ste. 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@
arkansasag.gov

August 23, 2021

LESLIE RUTLEDGE
Arkansas Attorney
General
NICHOLAS J. BRONNI
Solicitor General
Counsel of Record
VINCENT M. WAGNER
Deputy Solicitor General
ASHER L. STEINBERG
Assistant Solicitor
General
JENNIFER L. MERRITT
Senior Assistant
Attorney General

